APP1
APPENDICES
Appendix 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
GB Capital Holdiings, LLC., a
California Limited Liability Co.
PlaintiffyAppellee

No. 19-55104

v.
JEFFREY GLENN HESTON,

D.C. No. 3:i8-cv-00312WQH-AGS

Claimant/Appellant
and
MEMORANDUM*
S/V GLORI B, a 1977 Sailing
Vessel of Approximately 27-Feet
in Length,U.S.C.G. Official No.
598405, and All of Her Engines,
Tackle Accessories, Equipment,
Furnishings, and
Appurtenances, in rem

Filed: April 21, 2020

Appeal from the United States District Court
for the Southern District of California
William Q. Hayes, District Judge, Presiding
Submitted April 7, 2020**
Before TASHIMA, BYBEE, and WATFORD, Circuit Judges.
*
This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3
**
The panel unanimously concludes this case is suitable
for decision without oral argument. See Fed. R. App. P. 34(a)(2)

APP2
Jeffrey Glenn Heston appeals pro se from the
district court’s January 22. 2019 order granting
plaintiff GB Capital Holdings, LLC’s (“GB Capital”)
motion for an order of sale of the sailing vessel Glori
B in GB Capital’s admiralty action in rem. We have
jurisdiction under 28 U.S.C. §1291. We review de
novo the district court’s conclusions of law and for
clear error the district court’s finding of fact. Crowley
Marine Servs. v. Maritrans, Inc., 530 F.3d 1169, 1173
(9th Cir. 2008). We review de novo the district court’s
interpretation of the Supplemental Admiralty and
Maritime Claims Rules. United States v. $11,500.00
in US. Currency, 710 F.3rd 1006, 1010 (9th Cir. 2013).
We affirm.
The district court did not err by granting GB
Capital’s motion for an order of Supplemental Rule
E(9)(a)(i)(A)*(C) (the court nay order all or part of the
property sold if the property is liable to deterioration
hy being detained in custody pending the action, the
expense of keeping the property is excessive or
disproportionate, or there is unreasonable delay in
securing release of the property)
We reject as meritless Heston’s contentions
regarding the district court’s alleged lack of subject
matter jurisdiction.
Heston’s motion for judicial notice (Docket
Entry No. 22) is denied.
GB Capital’s request for sanctions, set forth in
the answering brief, is denied.
AFFIRMED

APP3
Appendix 2
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
GB Capital Holdings, LLC,
a California Limited
Liability Company,
Plaintiff

Case No? 18cv312WQH-AGS

ORDER
v.
S/V GLORI B, a 1977
Sailing Vessel of
Approximately 27 feet in
Length, U.S.C.G. Official
Number 598405 and All of
Her Engines, Tackle
Accessories, Furnishings
and Apputenances, in rem
HAYES; Judge

Filed: January, 19,
2019

The matter before the court is the motion for
order of sale filed by Plaintiff GB Capital Holdings,
LLC, (ECF No 26)
I.

Procedural Background

On February 2, 2018, Plaintiff GB Capital
Holdings, LLC, as agent of San Diego Mooring
Company, initiated this action by filing a verified
complaint. (ECF No l). Jeffrey G. Heston, proceeding
pro se, filed a Statement of Interested Parties,
stating “I, Jeffrey G. Heston, am the sole owner of
the Sailing Vessel ‘Glori B’, document number
598405 and here*in named Defendant in this matter
before this Court.”

APP4
On April 10, 2018, an arrest warrant for the
Defendant Vessel was issued, and Pier 32 Marina
was appointed as substitute custodian. (ECF No. 6)
On November 29, 2018 the Court denied (ECF
No 25) a motion to dismiss filed by Heston (ECF No.
21).
On December 6, 2018, GB Capital filed an es
parte Motion for Order of Sale, moving the Court to
order an interlocutory vessel sale and authorize a
credit bid. (ECF No. 26). GB Capital requests that
the court enter an order directing the United Stated
Marshal to sell the Defendant Vessel at public
auction. GB Capital further requests that the Court
authorize GB Capital to credit bid an amount up to
the lien amount attested to under oath in the veified
Complaint ($55,728.51), plus the actual and
demonstrable costs of suit, including U.S. Marsja.’,
substitute
custodian, and other custodia legis
expenses, at the auction of the Defendant Vessel.
On December 21, 2018, Heston filed an
Answer to the Complaint, (ECF No 28). The Answer
“enters a general denial of lack of jurisdiction
and...submits an affirmative defense of res judicata
to all allegations made in the Complaint “ Id. at 1.
the Answer states that there is no evidence of a
maritime lien in this case, and “begs the Court to
release the vessel from her bonds, order the Plaintiff
to restore her taken value, and retun to the
contracted status quo prior to the resolution of this
controversy.” (ECF No 28).
II.
FACTUAL BACKGROUND
In the verified Complain, GB Capital alleges
that San Diego Mooring Company (SDMC) supplied
the Defendant Vessel, “a 1977 Sailing Vessel of
Approximately 27 feet in length, U.S.C.G. Official No

APP5
598405 ,” a berth in San Diego Bay, (ECF No.l at 1*2)
GB Capital alleges that under the moorage contract,
the vessel must undergo an annual safety inspection
Id. at 2-3. GB Capital alleges that the owner of the
boat, Heston, declined the inspection. Id. at 3-4. GB
Capital alleges that SCMC ordered Heston to remove
the boat, and that Heston refused. Id.
GB Capital alleges that the boat was towed to
an impound location on March 25, 2016, and has not
been retrieved. Id. at 4,8. GB Capital alleges that
Heston “has repeated and consistently refused to
submit his claims for resolution in binding
arbitration” as ordered in the prior litigation. Id. at
7-8. GB Capital seeks in rem relief against the vessel
for breach of maritime contract, trespass, and
quantum meruit. GB Capital alleges damages of
$55,728.51 in accrued wharfage fees and other costs
as of February 7, 2018. Id. at 9. GB Capital provides
the declaration of Bay Jones, President of Long
Beach Yacht Sales, stating,
[Ilf [the Defendant Vessel) is permitted to lay
idle without routine maintenance and without
proper lay-up preparation, the vessel’s engines
might (even if now operational) rust and freeze
up, necessitating costly overhaul. I understand
the engines were not, as I believe is usual in
vessel arrest cases conditioned for lay-up...[I]t
is unavoidable that the Defendant Vessel will
deteriorate in condition and value as she sits
idle in salt water, and that the longer the
vessel remains under arrest an therefore idle
the greater the deterioration will be, and that
therefore, in the interest of preserving the
value of the of the Defendant vessel, she
should be sold as soon as possible.

APP6
(Decl.of Ray Jones, ECF No 26-2). The declaration
farther states that Jones estimates the fair market of
the Defendant Vessel, to be approximately $6000,
based on “photographs taken by the Substitute
Custodian” after the arrest of the Defendant Vessel,
comparisons to other vessels, and ’’other information
and evidence available to [him}.” Id. at 4. GB Capital
submits the declaration of Jimi Laughery, Assistant
Marina Manager at Pier 32 Marina, filed in support
of GB Capital’s Appointment of Substitute
Custodian. (Decl. of Jimi Laughery, ECF No. 3-1).
The declaration states that the substitute custodian
“provide [s] ongoing wharfage and custodial services
at the rate of $3.00 per foot of vessel length per day
(i.e., 27 ft. x $3.00 =$81.00 per day).” Id. at 4.
III. THE PRIOR LITIGATION
On April 15, 2016, Heston sued GB Capital
under admiralty and maritime jurisdiction to recover
possession of the vessel and damages. Heston v. GB
Capital Holdings, LLC., Civ. No. 16cv912.
On July 1, 2016, GB Capital filed a motion to
compel arbitration. Heston did not file a response.
On August 23, 2016, the Court ordered arbitration as
to the moorage contract.
On September 13, 2016, Heston filed a motion
for relief from the Court’s August 23, 2016 Order,
pursuant to Federal Rule of Civil Procedure 60(b)(1)(3). On December 15, 2016, the Court denied
Heston’s motion for relief from judgment.
On October 23, 2017, Heston filed a second
motion for relief from the Court’s August 23, 2016
Order, on various grounds, including that the
“Maritime Contract for Private Wharfage” is not
cognizable in admiralty. On January 5, 2018, the
Court denied Heston’s motion for relief.

APP7
On January 26, 2018, Heston filed a notice of
appeal, On August 21, 2018, the Court of Appeals for
the Ninth Circuit concluded this Court did not abuse
discretion by denying relief from the August 23, 2016
Order. On September 4, 2018, Heston filed a petition
for panel rehearing and petition for rehearing in
banc with the Court of Appeals. On January 3, 2019,
the Court of Appeals denied the petition for
rehearing en bank.
IV. DISCUSSION
A. Interlocutory Sale
GB Capital contends that the Court should
authorize sale of the Defendant Vessel on the
grounds that the statutory conditions for sale are
met. GB Capital asserts that the Defendant Vessel is
deteriorating in condition and value while detained
in custody. GB Capital asserts that there as an
unreasonable delay in this case because no person or
entity has posted or sought to post security for the
release of the defendant vessel or requested a
hearing pursuant to Supplemental Admiralty Rule
E(9)(b). GB Capital asserts that there is no realistic
prospect of an attempt to secure release of the vessel
in this action. GB Capital asserts that the expense of
keeping the Defendant Vessel is excessive and
disproportionate because at least $18,792 in
substitute custodian fees has accrued, over three
times the presumed value of the Defendant Vessel.
The Answer filed by Heston contends that the
contract at issue in this case is not a maritime lien,
and that jurisdiction does not exist absent evidence
of a maritime lien1. The Answer asserts that GB
1 The Court assesses the Motion For Order of Sale on the merits
and does not construe any failure to file a timely response as
consent to granting the Motion. See Norog v, Certegy Check

APP8
Capital has stripped the Defendant vessel “of any
and all of the gear that makes her seaworthy and
navigable” and “all the comforts that gave her
character and value” (ECF No. 28 at 3). The Answer
asserts that GB Capital “has repeatedly refused to
honor its obligations,” ”has evaded every effort to
settle this matter equitably,” “refuses to mediate,
and agrees to arbitrate only after profiting greatly
through the unlawful application of brute force and
when threatened by legal action.” Id. at 3-4. The
Answer asserts that the issue of whether the
Defendant Vessel the wharfage contract has only
been raised in proceedings before this court, and was
never raised in a manner consistent with either the
(unapproved) mooring contract or Port District
procedure.” Id. at 3. The Answer asserts that “[t]he
Defendant has repeatedly demonstrated the
willingness to resolve this matter in accordance with
the law and the contractual rights of all parties” Id.
at 3-4. The Answer asserts that “nothing has been
decided, yet GB Capital always proceeds as if it is
already the recipient of a favorable judgment from a
competent tribunal.” Id. at 4.
Supplemental Admiralty and Maritime Claims
Rule E(9)(a) of the Federal Rules of Civil Procedure
states,

Servs., Inc., 759 F. Supp. 2d 1189, 1193 n.l (N.D. Cal
201l)(addressing motion to dismiss on the merits “[clonsidering
the Court’s obligation to afford pro se plaintiffs the benefit of
any doubt” and in the fight of “the Ninth Circuit’s unequivocal
pronouncement that a court may not grant a motion for
summary judgment merely because the non-moving party failed
to file opposition papers” (first citing Bretz v Kelman, 773 F.2d
1026, 1027 n.l(9th Cir. 1985), then citing Martinez v. Stanford,
323 F.3d 1178, 1183 (9th Cir. 2003)).

APP9
On application of a party, the marshal, or
other person having custody of the property,
the court may order all or part of the property
sold - with the sales proceeds, or as much of
them as will satisfy the judgment, paid into
court to await further orders of the court - if
(A) the attached or arrested property is
perishable, or liable to deterioration, decay, or
injury by being detained in custody pending
the action!
(B) the expense of keeping the property is
excessive or disproportionate; or
(C) there is an unreasonable delay in securing
release of the property.
Fed. R. Civ. P., Supp. Adm. R. E(9)(a)(i). The
applicant is required to satisfy one of the three listed
criteria to justify an interlocutory sale. See, e.g., Cal
Yacht Maiina-Chula Vista, LLC v. S/V OPILY, No.
U-cv-01215-BAS BGS, 2015 WL 1197540, at *2 (S.D.
Cal, Mar. 16, 2015) (citing Merchants Nat. Bank of
Mobile v. Dredge gen. G.L. Gillespie, 663 F,2d 1338,
1341 (5th Cir. 1981)). “The interlocutory sale of a
vessel is not a deprivation of property, but rather a
necessary substitution of the proceeds of the sale,
with all of the constitutional safeguards necessitated
by the in rem process.” Ferrous Fin. Servs. Co. v. O/S
Arctic Producer, 567 F. Supp. 400, 401 (W.D. Wash.
1983).
GB Capital has presented evidence that
Defendant Vessel was not conditioned for lay-up, “as
usual in vessel arrest cases.” There are no facts in
the record to the contrary. The Court finds the
Defendant Vessel is liable to deterioration within the
meaning of Supplemental Admiralty
Rule
E(9)(A)(i)(a). Compare Cal. Yacht, 2015 WL 1197540,
at *3 (finding defendant vessel liable to deterioration

APP10
or injury based on expert evidence of possible costly
overhaul, and electric equipment susceptibility to
corrosion, rust, and general deteriorationXciting
Merchants, 663 F.2d at 1342 (“The engines were not
properly condition for lay-up....The court’s
assessment that each of the vessels was ‘liable to
deterioration...or injury by being detained in custody’
was not clearly erroneous.”)), with Vineyard Bank v.
M/YElizabeth I, U.S.C.G. Official No. 1130283, No.
08cv2044 BTM WMC, 2009 WL 799304., at *1 (S.D.
Cal. Mar. 23, 2009)(concluding that “a generalized
assertion that idle vessels will deteriorate,” absent
“other evidence that the Defendant Vessel is liable to
decay,” did not satisfy Rule E(9)(a)(i)).
Courts generally allow at least four months for
the provision of a bond to secure the release of a
vessel before granting an interlocutory sale on
grounds of unreasonable delay. See Vineyard Bank,
2009 WL 2330704, at * (citing Bank of Rio Vista v.
Vessel Captain Pete, 2004 WL 2330704., at *2 (N.D.
Cal. Oct. 14, 2004)). In this case, the record shows no
attempts to secure the Defendant Vessel after the
April 2018 arrest. There are no facts in the record to
the contrary. The Court finds an unreasonable delay
has occurred within the meaning of Supplemental
Admiralty Rule E(9)(A)(i)(c). See Ferrous, 567 F.
Supp. at 401 (concluding, when defendants had
appeared in the action, that no attempt to secure
release of the vessel within four months since arrest
was unreasonable delay); Merchants, 663 F.2d at
1341-42 (failing to secure the release of the vessel
eight months after arrest was unreasonable delay);
Vineyard Bank, 2009 WL 799304, at *2 (concluding
four-month delay was unreasonable when no person
had attempted to secure the release of the vessel).

APP11
Maintenance expenses of several thousand
dollars per month are excessive and disproportionate
when a defendant has made no attempt to secure the
vessel’s release. In this case, GB Capital has
presented evidence $18,792 in accrued fees, which
will increase $2,430 each month. GB Capital has
presented evidence that the estimated fair market
value of the Defendant Vessel is $6000. There are no
facts in the record to the contrary. The Court finds
that the accrued costs excessive and disproportionate
to the estimated fair market value of the Defendant
Vessel. See Cal. Yacht, 2015 WL 1197540 at *4
(concluding $6000 in custodial fees, which would
and
excessive
was
accruing,
continue
disproportionate to the vessel’s maximum fair
market value of $12,000); Merchants, 663 F.2d at
1342 (concluding interlocutory sale justified base on
$17,000 in monthly costs and an eight-month delay
in attempting to secure release); Ferrous, 567 F.
Supp. at 401 (concluding $166,000 in annual
maintenance costs was excessive when there was no
attempt to secure the vessel’s release for four
months).
Taking into account the disproportionate cost
of maintaining the Defendant Vessel, the
unreasonable delay in securing its release, and the
likelihood of deterioration, the Court finds
interlocutory sale warranted under Rule (9)(a)(i) and
grants Plaintiff’s motion for interlocutory sale of the
Defendant Vessel.
B,
Credit Bid
GB Capital asserts that it is the only party
who has asserted a maritime lien claim against the
Defendant Vessel, and is by definition senior to all
other claims in this action. GB Capital contends that
the Court should authorize GB Capital to bid up to

APP12
the lien claim against the Defendant Vessel, and is
by definition senior to all other claims in this action.
GB Capital contends that the Court should authorize
GB Capital to bid up to the lien amount in the
verified Complaint ($55,728), plus the actual and
demonstrable costs of suit, include U.S. Marshal,
substitute custodian, and other custodial egis
expenses, pursuant to the Local Admiralty rules. GB
Capital asserts it will establish the lien amount by
affidavit as required by Local Admiralty Rule
E. 1(e)(2).
As detailed above, the Answer “enters a
general denial of lack of jurisdiction, submits an
affirmative defense of res judicata to all allegations
in the Complaint,” states that there is no evidence of
a maritime lien in this case, and “begs the Court to
release from her bonds, order the Plaintiff to restore
her taken value, and return to the contracted status
quo prior to the resolution of this controversy.” (ECF
No. 28 at 1-4).
“When a vessel is sold by order of a district
courting a civil action in rem brought to enforce a
preferred mortgage or lien or a maritime lien,” a
“preferred mortgage hen...has priority over all
claims against the vessel (except for expenses and
fees allowed by the court, costs imposed by the court,
and preferred maritime hens).” 46 U.S.C.
§31326(a),(b)(1). A preferred maritime hen is defined
as “a maritime hen on a vessel!,] (A) arising before a
preferred mortgage was filed...; (B) for damage
arising out of maritime tort; (C) for wages of a
stevedore...; (D) for wages of the crew of the vessel;
(E) for general average; or (F) for salvage, including
contract salvage.” §31301(5). According to the local
rules for admiralty actions,

APP13
When the court determines on the merits that
a plaintiff or plaintiff in intervention has a
valid claim senior in priority to all other
parties,
that plaintiff in intervention
foreclosing a properly recorded and endorsed
preferred mortgage on, or other valid security
interest in the vessel may bid, without
payment of cash, certified check or cashier’s
check., up to the total amount of the secured
indebtedness as established by affidavit filed
and served on all other parties no later than
seven (7) days prior to the date of sale
.S.D.Cal. Civ. R.E.1(e)(2). After process has been
executed, parties have fourteen days, or the time
allowed by the court, to file a verified statement of
right or interest. Fed. R. Civ. P. Supp. Admiralty R.
C(6)(a).
In this matter, Heston disputes the wharfage
contract at issue on multiple grounds. However,
Heston provides no evidence that GB Capital does
not hold a preferred maritime lien on the Defendant
Vessel. Heston does not oppose the request to credit
bid. The evidence in the record shows that GB
Capital holds a preferred maritime lien on the
Defendant Vessel. (Wharfage contract, Ex. A to
Compl., ECF No. 1*2). No party other than GB
Capital has asserted a maritime lien claim within
the time allowed by Fed. R. Civ. P., Supp. Adm. R.
C(6)(a). The Court finds that GB Capital has a
preferred maritime lien claim with priority over all
other claims against the Defendant Vessel, except for
the expensed and fees allowed by the Court and costs
imposed by the Court in this action. See Vineyard
Bank, 2009 WL 799304, at *3. Provided GB Capital
complies with Local Rule E.l(e)(l)-(2), the Court
grants GB Capital’s request to authorize a credit bid

APP14
up to the amount of secured indebtedness at the sale
of the Defendant Vessel. See id. ; Bank of Rio Vista,
2004 WL 2330704, at *2-3 (authorizing credit bid
when defendants did not oppose the request to credit
bid and argued only that interlocutory vessel sale
was premature).
V. Conclusion
IT IS HEREBY ORDERED that the Motion for
Order of Sale file by Plaintiff GB Capital Holdings,
LLC (ECF No. 26) is granted.
IT IS FURTHER ORDERED that, consisten
with Supplemental Admiralty Rule E(9)(B) and Local
Admiralty Rule E.l(e) the United States Marshal be
and hereby is directed and empowered to sell said
DEFENDANT VESSEL and her engines, tackle,
furnishings
and
accessories,
equipment,
appurtenances as is, were is, at public sale a the first
available time and date, after having first caused
notice of said sale to be published daily in a
newspaper of general circulation within the City of
San Diego, California for at least seven days
immediately before the date of sale; and
IT IS FURTHER ORDERED that such public
notice specify the date, time and location for the sale
of the DEFENDANT VESSEL; and
IT IS FURTHER ORDERED that, consistent
with Local Admiralty Rule E. 1(e)(2), such public
notice specify that the last and highest bidder of the
sale will be required to deposit with the U.S. Marshal
a certified check or a cashier’s check in the amount of
the full purchase price not to exceed $500 dollars,
and otherwise $500 or ten percent (10%) of the bid,
whichever is greater, and that the balance, if any, of
the purchase price shall be paid by certified check or
cashier’s chick before confirmation of the sale or
within three days of dismissal of any opposition

APP15
which may have been filed, exclusive of Saturdays,
Sundays and legal holidays,' and
IT IS FURTHER ORDERD that any proceeds
of said sale shall be held by it or deposited by the
United States Marshal in the Registry of this Court,
pending further Order of this Court; and
IT
IS
FURTHER
ORDERED
that
PLAINTIFF, having secured a maritime lien interest
in the DEFENDANT VESSEL pursuant to the
Commercial Instruments and Federal Maritime Lien
Act (46 U.S.C. § 31301, et seq,) and being the only
claimant in this action asserting a maritime claim
against her, is authorized pursuant to Local
Admiralty Rule E. 1(e)(2) to credit bid at the auction
of the DEFENDANT VESSEL, without payment of
cash, a sum equal to the secured interest in the
DEFENDANT VESSEL as established by affidavit
filed and served on all other parties no later than
seven (7) days prior to sale pursuant to Local
Admiralty Rule E. 1(e)(2), consisting of the lien
amounts specified in PLAINTIFFS Verified
complaint, totaling $55,728.51 (calculated through
February 7, 2018), plus its actual costs of suit
through the date of the sale, including U.S. Marshal
and other custodia legis expenses, with such costs
and expenses to be calculated a the rates specified
and authorized in the Order appointing the
Substitute Custodian. However, as PLAINTIFFs
maritime necessaries hen interest in the
DEFENDANT VESSEL does not, as a matter of law,
include attorneys’ fees, such fees are not to be
included in any credit bid Plaintiff makes!
IT IS FURTHER ORDERED, pursuant to
Local Supplemental Admiralty Rule E. 1(e)(2), that if
within three days of the auction date, exclusive of
Saturdays, Sundays, and legal holidays, no written

APP16
objection is filed, the sale shall stand confirmed as of
course, without the necessity of any affirmative
action thereon by a judge, except that no sale shall
stand confirmed until the buyer has complied fiilly
with the terms of the purchase.
Dated- January 22, 2019
/s/
Hon. William Q. Hayes
U.S. District Court

APP17

Appendix 3
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JEFFREY GLENN HESTON
Plaintiff-Appellant

No. 18-55125
D.C. No. 3:i6-cv-00912WQH-AGS

v.
GB CAPITAL HOLDINGS, LLC
a limited Liability

MEMORANDUM*
Corporation
Filed: August 21, 2018
Defendant-Appellee
Appeal from the United States District Court
for the Southern District of California
William Q. Hayes, District Judge, Presiding
Submitted August 15, 2018**
Before: FARRIS, BYBEE, and N.R. SMITH. Circuit Judges

Jeffrey Glenn Heston appeals pro se from the
district court’s January 5, 2018 post-judgment order
denying relief from its order granting defendant’s
motion to compel arbitration and dismissing Heston’s
action. We have jurisdiction under 28 U.S.C. §1291.
*
This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2)

APP18
We review for abuse of discretion. Sch. Dist. No. 1J,
Multnomah Cty., Or. v. ACandS, Inc., 5 F.3d 1255,
1262 (9th Cir. 1993. We affirm.
The district court did not abuse its discretion
by denying Heston’s motion for relief from judgment
under Federal Rule of Civil Procedure 60(b) because
Heston failed to set forth any basis for relief. See id.
at 1263 (setting forth grounds for relief under Rule
60(b)).
We do not consider the district court’s order
granting defendant’s motion to compel arbitration
and dismissing the action, or the December 15, 2016
order denying Heston’s motion for relief, because the
notice of appeal is untimely as to those orders. See
Fed. R. App. P. 4(a)(4)(A) (a motion under Rule 60(b)
extends the time to file an appeal if the motion is
filed no later than 28 days after judgment is
entered); Hamer v. Neighborhood Hous. Servs. 138
S.Ct. 13, 17-18 (2017)(a time limit not prescribed by
Congress is a mandatory claim- processing rule and
if properly invoked, mandatory claim-processing
rules must be enforced); Demaree v. Pederson, 887
F.3d 870, 876 (9th Cir. 2018)(Fed. R. App. P. 4(a)(4) is
mandatory claimlprocessing rule under Hamer)
We do not consider matters not specifically
and distinctly raised and argued in the opening brief.
See Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir.
2009).
AFFIRMED.

APP19
Appendix 4
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORIA
JEFFREY G. HESTON
Plaintiff
v.
GB CAPITAL
HOLDINGS, LLC.,
Defendant

Case No. 16cv912WQH-AGS
ORDER
Filed: January 5, 2018

HAYES, Judge:
The matters before the court are the motions
for relief filed Plaintiff Jeffrey G. Heston. (ECF No.
14 and 16)
I. Background
On April 15, 2016, Plaintiff Jeffrey G. Heston
initiated this action by filing a Complaint pursuant
to the Court’s admiralty and maritime jurisdiction to
recover possession of Plaintiffs vessel. (ECF No. l).
The Complaint alleges that Defendant GB Capital
Holdings, LLC., unlawfully took Plaintiffs vessel
from its mooring, continued to exercise control over
the vessel, and prevented Plaintiff from taking
possession of the vessel. On June 3, 2016, Defendant
filed an answer. (ECF No. 4).
On July 1, 2016, Defendant filed the motion to
compel arbitration. (ECF No. 6). Plaintiff did not file
a response to the motion to compel arbitration.
On August 23, 2016, the Court granted in part
and denied in part Defendant’s motion to compel

APP20
arbitration. (ECF No.7), The Court applied the
Maritime Contract for Private Moorage (“the
Contract”) between Plaintiff and San Diego Mooring
Company (“SDMC”) containing provisions for
arbitration and mediation. The Court concluded that
“based on the Contract and the representations made
by Defendant, a valid arbitration agreement exists
and encompasses the dispute at issue.” Id. at 3-4.
The Court also noted that Plaintiff had not filed an
opposition and “therefore ha[d] not met his burden to
show that the claims [were] unsuitable for
arbitration.” Id. at 4. The Court denied the portion of
Defendant’s motion requesting that the Court compel
mediation because the Court concluded that there
was no legal authority for a motion to compel non­
binding mediation. Id. at 5.
Plaintiff filed a motion for relief from the
Court’s order from August 23, 2016 (ECF No. 7)
pursuant to Federal Rule of Civil Procedure 60(b)(1)(3). (ECF No. 9). On December 15, 2016, this Court
denied Plaintiffs motion for relief from judgment.
(ECF No. 12). The Court concluded as follows^
The court concludes that Plaintiff is not
entitled to relief pursuant to Rule 60(b)(2) on
the basis of newly discovered evidence, the
Lease Agreement. The Plaintiff does not
provide any legal authority to demonstrate
that SDMC’s alleged violation of the Lease
Agreement with the Port District would void
his contract with SDMC or that he has
standing to challenge SDMC’s compliance with
the Lease Agreement. Plaintiff fails to show
that this newly discovered evidence “was of
such magnitude that production of it earlier
would have been likely to change the

APP21
disposition of the case.” Feature Realty, 331
F.3d at 1093.
Plaintiff further contends that Defendant’s
actions regarding the newly discovered Leas
Agreement
constitutes
fraud
because
Defendant failed to offer evidence failed to
offer evidence of the Port District approval of
this language. (ECF No. 9-1 at 6). Plaintiff
contends that this entitles him to relief under
Rule 60(b)(3) Id. Defendant contends that
Plaintiff has no rights under the Lease
Agreement and has no standing to challenge
the Defendant’s compliance with its terms.
(ECF No. 10 at 6) Defendant contends that it
has now submitted the Contract for approval
and “no reason exists to expect the Port
District will not approve it.” Id. at 9.
Plaintiff does
not
demonstrate
that
Defendant’s
alleged violation
of the
contractual terms of the Lease Agreement
with the Port District could constitute fraud
justifying relief under Rule 60(b)(3). The court
concludes that Plaintiff fails to establish by
clear and convincingevidence that Defentant
obtained a judgment by means of fraud and
this “conduct complained of prevented the
[Plaintifflfrom fully and fairly presenting the
case.” See Lafarge Conseils Et Etudes, S.A.,
F.2d at 1337-38.
The court concludes that Plaintiff has failed to
carry his burden to demonstrate that he is
entitled to relief under Rule 60(b)(l)-(3). (ECF
No. 12 at 5-6).
Plaintiff moves the Court for relief from the
December 15, 2016 order on the grounds that the

APP22
“Maritime Contract does not apply, and Plaintiff has
the right to a trial over the validity of the Contract.
Defendant asserts that the Contract is obviously a
maritime contract, that the Court properly applied
the Federal Arbitration Act, and that Plaintiff is not
entitled to a trial on his claim that the contractual
provision requiring arbitration is not enforceable.
Defendant requests sanctions under the Court’s
inherent authority based upon Plaintiffs bad faith
and willful disobedience of the court order.
III.

Ruling of the Court
Federal Rule of Civil Procedure 60(b) provides,
On a motion and just terms, the court may
relieve a party or its legal representative from
a final judgment, order, or proceeding for...(l)
mistake, inadvertence, surprise, or excusable
neglect; (2) newly discovered evidence that,
with reasonable diligence, could not have been
discovered in time to move for a new trial
under Rule 59(b); (3) fraud (whether
previously called intrinsic or extrinsic),
misrepresentation, of misconduct by an
opposing party... Fed. R. Civ. Proc. 60(b)(1)(3).

In this case, the Court has fully considered
and resolved all legal issues relevant to the August
23, 2016 order (ECF No. 7) and the December 15,
2016 order (ECF No. 12). The Court finds that a
valid arbitration exists and encompasses the dispute
at issue. The Court concludes that the order
compelling arbitration is authorized under the
Federal Arbitration Act, and that Plaintiff is not
entitled to a trial on his claim that the contractual

APP23
provision requiring arbitration is not enforceable.
There are no grounds for relief from the August 23,
2016 order (ECF No. 7) or the December 15, 2016
order (ECF No. 12).
Defendant’s request to award sanctions under
its inherent authority is denied at this stage in the
proceedings without prejudice.
IT IS HEREBY ORDERED that the motions
for relief filed by Plaintiff are DENIED. (ECF No. 14
and 16).
DATED: January 5, 2018
/s/
William Q. Hayes
United States District Judge

APP24
Appendix 5
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
JEFFREY G. HESTON
Plaintiff
v.
GB CAPITAL HOLDINGS, LLC
Defendant

CASE NO. 16cv912-WQHAGS
ORDER
Filed : 12/15/16

HAYES, Judge
The matter before the court is the motion for
relief from order filed by Plaintiff Jeffrey G. Heston.
(ECF No. 9).
Background
On April 15, 2016, Plaintiff Jeffrey G. Heston
initiated this action by filing a Complaint pursuant
to the Court’s admiralty and maritime jurisdiction to
recover possession of Plaintiffs vessel. (ECF No. l).
The Complaint alleges that Defendant GB Capital
Holdings, LLC unlawfully took Plaintiffs vessel from
its mooring, continued to exercise fontrol over the
vessel, and prevented Plaintiff from taking
possession of the vessel. On June 3, 2016, Defendant
filed an answer. (ECF No. 4).
On July 1, 2016, Defendant filed the motion to
compel arbitration. (ECF No. 6). Plaintiff did not file
a response to the motion to compel arbitration.
On August 23, 2016, the Court granted in part
and denied in part Defendant’s motion to compel
arbitration. (ECF No. 7). The Court applied the
Maritime Contract for Private Moorage (“the
Contract”) between Plaintiff and San Diego Mooring
I.

APP25
Company (“SDMC”)1 containing provisions for
arbitration and mediation. The Court concluded that
“based on the Contract and the representations made
by Defendant, a valid arbitration agreement exists
and encompasses the dispute at issue .” Id. at 3-4.
The Court also noted that Plaintiff had not filed an
opposition and “therefore ha[d] not met his burden to
show that the claims [were] unsuitable for
arbitration.” Id. at 4. The Court denied the portion of
Defendant’s motion requesting that the Court compel
mediation because the Court concluded that there
was no legal authority for a motion to compel non­
binding mediation. Id. The Court ordered that the
parties were “directed to proceed to arbitration in
accordance with the terms of the arbitration
agreement in the Maritime Contract for Private
Moorage.” Id. at 5.
On September 13, 2016, Plaintiff filed a
motion for relief from the Court’s Order from August
23, 2016 (ECF No. 7) pursuant to Federal Rule of
Civil Procedure 60(b)(l)-(3). (ECF No. 9). On October
1, 2016, Defendant filed a response in opposition.
(ECF No. 10). The docket reflects that Plaintiff has
not filed a reply.
II. Legal Standard
Federal Rule of Civil Procedure 60(b) provides,

1 The previous Order from this Court states, “Defendant asserts
that GB Capital Holdings, LLC provides administrative support for San
Diego Mooring Co. which operates and maintains vessel moorings at
various locations within San Diego Bay...Defendant asserts that it is an
agent for SDMC with respect to matters involving die enforcement of
wharfage contract terms.” (ECF No. 7 at 2-3).

APP26
On a motion and just terms, the court may
relieve a party or its legal representative from
a final judgment, order, or proceeding for...(l)
mistake, inadvertence, surprise, or excusable
neglect’ (2) newly discovered evidence that,
with reasonable diligence, could not have been
discovered in time to move for a new trial
under Rule 59(b); (3) fraud (whether
previously called intrinsic or extrinsic),
misrepresentations, or misconduct by an
opposing party... Federal R. Civ. Proc.
60(b)(l)-(3).
Motions brought under Rule 60(b)(l)-(3) must
be made within a reasonable time and “no more than
a year after the entry of the...order.” Fed. R. Civ. P.
60(c). The burden of proof is on the party bringing
the Rule 60(b) motion. See Rufo v. Inbates of Suffolk
County Jail, 502 U.S. 367, 382 (1992).
Rule 60(b)(1) is “not intended to remedy the
effect of a litigation decision that a party comes to
regret.” Latshaw v. Trainer Wortham & Co., 452
F.3d 1097, 1101 (9th Cir 2006). “For the purposes of
subsection (b)(l), parties should be bound by and
accountable for the deliberate actions of themselves
and their chosen counsel... includting] not only an
innocent, albeit careless or negligent attorney
mistake, but also intentional attorney misconduct.”
Id.
Under Rule 60(b)(2), relief “on the basis of
newly discovered evidence is warranted if (l) the
moving party can show the evidence relied on in fact
constituted newly discovered evidence within the
meaning of Rule 60(b); (2) the moving party exercised
due diligence to discover this evidence; and (3) the
newly discovered evidence must be of ‘such
magnitude that production of it earlier would have

APP27
been likely to change the disposition of the case.’”
Feature Realty, Inc. v. City of Spokane, 331 F.3d
1082, 1093 (9th Cir. 2003)(quoting Coastal Transfer
Co. v. Toyota Motor Sales, U.S.A., 833 F.2d 208, 211
(9th Cir. 1987).
“Under Rule 60(b)(3), the moving party must
establish by clear and convincing evidence that a
judgment was obtained by fraud, misrepresentation,
or misconduct, and that the conduct complained of
prevented the moving party from fully and fairly
presenting the case.” Lafarge Conseils et Etudes,
S.A. v Kaiser Cement & Gypsum Corp., 791 F.2e
1334, 1338 (9th Cir. 1987). Rule 60(b)(3) is aimed at
judgments which were unfairly obtained, not at those
which are factually incorrect.” De Saracho v. Custom
Food Mach., Inc., 206 F.3d 874, 880 (9th Cir.
2000)(quotations omitted).
III.

Discussion

Plaintiff contends that the Court erred in
compelling arbitration and is entitled to relief
pursuant to Rule 60(b). (ECF No, 9-1 at 3).
Defendant contends that the Court was within its
discretion to regard Defendant’s motion to stay
action and compel as unopposed pursuant to Local
Rule 7.l(£>(3)(c). (ECF No. 10 at 3).
Plaintiff did not file any opposition to the
Defendant’s motion to compel. A district court may
properly grant an unopposed motion pursuant to a
local rule where the local rule permits, but does not
require, the granting of a motion for failure to
respond. See Ghazali v. Moran, 46 F.3d 52, 54 (9th
Cir. 1995). The Court reviewed the merits of
Defendant’s arguments and the language of the

APP28
contract and determined that a valid arbitration
provision existed. (ECF No. 7).
Plaintiff now contends the language in the
contract exempts certain matters from mediation and
arbitration, (ECF No. 9-1 at 3). Defendant contends
the Contract makes clear that “that all claims by the
parties, except for claims Defendant has against
Plaintiffs vessel, must be resolved by way of
mediation by way of mediation/arbitration.” (ECF
No. 10 at 5-6).
The contract states^
In the event a claim arises under or pertaining
in any way to this Agreement that is not
resolved by negotiation, the parties agree they
shall first submit such dispute for non-binding
mediation, to occur in San Diego, prior to
commencing litigation...If such Mediator does
not exist or is unavailable within 45 days of
being requested to serve, the parties shall
select a mutually acceptable individual who
has prior experience serving as a mediator or
arbitrator, The obligation to mediate does not
apply to any claims SDMC has against the
vessel (as contrasted with her owner) for her
debts or torts. Nothing in this Agreement shall
be construed to limit in any way SDMC’s right
to seek recovery directly against the vessel in
an in rem action in a U.S. District Court for
liens based on the debts an/or torts of the
Vessel; unless SDMC agrees to do so in
writing, such claims against the Vessel are not
restricted by or subject to the mediation
provision herein. The intention of this
Paragraph is to require mediation only of
claims the Owner(s) might have against
SDMC, or claims SDMC might have against

APP29
the Owner(s), and not claims SDMC night
have against the Vessel, If mediation is
unsuccessful, the parties shall submit the
dispute(s) heard in mediation for decision by
way of binding arbitration, with the person
who served as Mediator serving as the
Arbitrator. (ECF No. 6*4 at 20).
Plaintiff initiated this action against Defendant. The
Contract provides for mediation and arbitration of
claims an owner, such as Plaintiff, may have against
SDMC and claims SDMC may have against the
owner. The contractual exemption for a claim SDMC
has against a vessel has against a vessel has no place
against a vessel has no application to this matter.
Plaintiff contends that newly discovered
evidence provides grounds for relief under Rule
60(b)(2). Plaintiff contends that on July 28, 2016,
Plaintiff obtained a copy of the lease agreement
between the San Diego Unified Port District (the
“Port District”) and SDMC and amendments to the
lease (the “Lease Agreement”) by which the Port
District “conveys the operations of the mooring bouy
anchorages to the SDMC...and enunciates the rights
and legal obligations of the SDMC.” (ECF No. 9*1 at
6). Plaintiff contends that pursuant to the Lease
Agreement, SDMC must obtain the Port Districts
approval of any revisions to the language of contracts
between SDMC and vessel owners, such as Plaintiff.
Plaintiff contends that the SDMC has modified the
standard language without approval from the Port
District by including the provisions for the
arbitration and mediation of disputes. Id.
Defendant contends that Plaintiffs “newly
discovered” lease agreement between the Defendant
and the Port District does not provide grounds for
relief from the order because Plaintiff is not a party

APP30
to the Lease Agreement and lacks standing to
challenge Defendant’s compliance. (ECF No. 10 at 7).
Defendant contends that the Contract between
Plaintiff and Defendant is not void or voidable due to
any non-compliance by Defendant with the Lease
Agreement with the Port District.2 Id.
The Court concludes that Plaintiff is not
entitled to relief pursuant to Rule 60(b)(2) on the
basis of newly discovered evidence, the Lease
Agreement. Plaintiff does not provide any legal
authority to demonstrate that SDMC’s alleged
violation of the Lease Agreement with the Port
District would void his Contract or that he has
stand ng to challenge SDMC’s compliance with the
Lease Agreement.3 Plaintiff fails to show that this
newly discovered evidence “was of such magnitude
that production of it earlier would have been likely to
change the disposition of the case.” Feature Realty,
331 F.3d at 1093.
Plaintiff further contends that Defendant’s
actions regarding the newly discovered Lease
Agreement constitutes fraud because Defendant
failed to offer evidence of the Port District’s approval
of this language. (ECF No. 9*1 at 6). Plaintiff
contends that this entitles him to relief under Rule
60(b)(3). The Court concludes that Plaintiff fails to
establish by clear and convincing evidence that
Defendant obtained a judgment by means of fraud
2 Defendant also contends that Plaintiff is required to participate
in arbitration by the terms of a different contract signed in 2005. (ECF
No. 10 at 7). Defendant includes a copy of this contract with its response
to Plaintiff’s motion. (Exhibit B, ECF No. 10-3). The Court does not
consider this in its ruling.
3Plaintiff asserts that the Lease Agreement was discovered on
July 28, 2016.(ECF No.90-1). The Court did not issue its Order
compelling arbitration and dismissing the case until August 23, 2016.
(ECF No. 7).

APP31
and this “conduct complained of prevented the
[Plaintiff! from fully and fairly presenting the case.”
See Lafarge Conseils Et Etudes, S.A., F2d at 1337*
38.

The Court concludes to fairly carry out his
burden to demonstrate that he is entitled to relief
under Rule 60(b)(l)*(3).
IV. Conclusion
IT IS HEREBY ORDERED that the motion for
relief filed by Plaintiff is DENIED. (ECF No. 9).
DATED: December 15, 2016
1st

WILLIAM Q. HAYES
United States District Judge

APP32
Appendix 6
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
JEFFREY G. HESTON
(owner, Vessel ‘Glori B)

CASE NO. 16cv912-WQHRRB

Plaintiff
ORDER
v.
GB CAPITAL HOLDINGS, LLC
Defendant
HAYES, Judge:
The matter before the Court is the motion to
compel arbitration and stay action (ECF No. 6) filed
by GB Capital Holdings, LLC.
I. Background
On April 15, 2016, Plaintiff Jeffrey G. Heston
initiated this action pursuant to the Court’s
admiralty and maritime jurisdiction to recover
possession of Plaintiffs vessel. (ECF No. l). The
Complaint alleges that Defendant unlawfully took
Plaintiffs vessel from its mooring, continued to
exercise control over the vessel, and prevented
Plaintiff from taking possession of the vessel. On
June 3, 2016, Defendant filed an answer. (ECF No.
4).
On July 1, 2016, Defendant filed the motion to
compel arbitration. (ECF No. 6). The docket shows
that no response to the motion to compel arbitration
has been filed.
II. Discussion
The federal Arbitration Act (“FAA”) ’’was
enacted ...in response to widespread judicial hostitity
to arbitration agreements.” AT& T Mobility LLC. v.
Conception, 563 U.S. 333, 339 (2011)(citing Hall

APP33
Street Associates, L.L. C. v. Mattel, Inc., 552 U.S.
576, 581 (2008). Section 2 of the FAA provides, “A
written provision in any... contract evidencing a
transaction involving commerce to settle by
arbitration a controversy thereafter arising out of
such contract or transaction... shall be valid,
irrevocable, and enforceable, save upon such grounds
as exist at law or in equity for the revocation of any
contract.” 9 U.S.C.§ 2. Section 2 of the FAA “reflectts]
both a liberal federal pohcy favoring arbitration and
the fundamental principle that arbitration is a
matter of contract.” Conception, 563 U.S. at 339
(internal citations and quotation marks omitted). “In
line with these principles, courts must place
arbitration agreements on equal footing with other
contracts, and enforce , them according to thenterms.” Id. (internal citations omitted),
“The basic role for courts under the FAA is to
determine (l) whether the agreement encompasses
the dispute at issue.” Kilgore v. KeyBank, Nat’l
Ass’n, 718 F.3d 1052, 1058 (9th Cir. 20l3)(en
bancXintemal quotation marks omitted). “If the
response is affirmative on both counts, then the
[FAA] requires the court to enforce the arbitration
agreement in accordance with its terms.” Chiron
Corp. v. Ortho Diagnostic Sys., Inc., 207 F.3d 1126,
1130 (9th Cir. 2000). “[T]he party resisting
arbitration bears the burden of proving that the
claims at issue ore unsuitable for arbitration.” Green
Tree Fin. Corp. v. Randolph, 531 U.S. 79, 91-92
(2000).
Pursuant to section 4 of the FAA, a party may
move for a district court order compelling arbitrationA party aggrieved by the alleged failure,
neglect, or refusal of another to arbitrate
under a written agreement for arbitration may

APP35
SDMC, or claims SDMC might have against
the Owner(s), and not claims SDMC night
have against the Vessel. If mediation is not
successful, the parties shall submit the
dispute(s) heard in mediation for decision by
way of binding arbitration with the person
who served as Mediator serving as the
Arbitrator. In such Arbitration, the Arbitrator
shall determine a “prevailing party,” who shall
be entitles to recover reasonable attorney’s
fees and costs. Id at 20.
The arbitration agreement goes on to detail the
mechanics of arbitration agreed to by the parties. Id.
at 20-21.
The arbitration clause in the contract is
written broadly to encompass any claims pertaining
to the Contract. Defendant contends that the conduct
giving rise to this dispute - Defendant’s removal of
its mooring in the marina — was lawful under the
terms of the Contract based on Plaintiffs refusal to
comply with a contractual requirement that he
submit his vessel for an annual inspection by the
United States Coast Guard. Defendants contend that
the Contract expressly permitted Defendant to
remove the vessel from its mooring to another
location. The Court concludes that based on the
Contract and the representations made by
Defendant, a valid arbitration agreement exists and
encompasses the dispute at issue. See Kilgore, 718
F.3d at 1058. Plaintiff has not filed an opposition to
the motion to compel arbitration and therefore has
not met his burden to show that the claims are
unsuitable for arbitration.1 See Green Tree Fin.
1 A district court ma properly grant an unopposed motion
pursuant to a local rule where the local rule permits, but does mot require,

APP36
Corp., 531 U.S. at 91-92. The Court concludes that
the arbitration agreement should be enforced in
accordance with its terms. See Chiron Corp., 207
F.3d at 1130.
The Court concludes that there is no legal
authority for an order to compel non-binding
mediation. See Trujillo v. Gomez, Case No. 14cv2483
BTM(BGS), 2015 WL 1757870, at *9(S.D.Cal. Apr 17,
2015)(finding that FAA remedies are not available
for non[binding mediation and that the Colifornia
Code of Civil Procedure lacks a provision for motions
to compel mediation).
When granting a motion to compel arbitration,
a court may dismiss, rather than stay, the dourt
action when all of the claims will be resolved in the
arbitration. See Trujillo, 2015 WL 1757870 at *9
the granting of a motion for failure to respond. See Ghazoli v. Moran, 46
F.3d 52,54 (9th Cir. 1995)(affirming dismissal for failing to oppose a
motion to dismiss, based on a local rule providing that “[t]he failure af the
opposing party to file a memorandum of points and authorities in
opposition to any motion shall constitute consent to the granting of the
motion”). Civil Local Rule 7.1 provides: If an opposing party fails to file
the papers in the manner required by Civil Local Rule 7.1.e.2, that failure
may constitute consent to the granting of the motion.” S,D. Cal.Civ.Local
Rule 7.1(f)(3)(c). “Although there is... a [public] policy favoring
disposition on the merits, it is the responsibility of the moving party to
move towards that disposition at a reasonable pace, and to refrain from
dilatory and evasive tactics.” In re Eisen, 31 F.3d 1447,1454 (9th Cir.
1994)(quoting Morris v. Morgan Stanley &Co., 942 F.2d 648, 652 (9ft
Cir. 1991))(affirming dismissal for failure to procescute).
The docket reflects that Plaintiff has failed to file an opposition
as required by Civil Local Rule 7.1.e.2. Defendant obtained a hearing dat
of August 8, 2016, for the pending motion to compel. See ECF No. 6.
Pursuant to the Local Rules, Plaintiff was to file any response to the
motion to compel no later than July 25,2016, fourteen days puior to the
hearing date. The docket reflects that Plaintiff has failed to file a
response. The Court construes Plaintiffs failure to oppose the motion to
compel as “a consent to the granting of’ the motion. S.D. Cal Civ. Local
Rule 7.1(f)(3)(c).

APP37
(dismissing action because all of Plaintiffs claims in
the case were subject to arbitration); Alvarado v.
Pacific Motor Trucking Co., 2014 WL 3888184 (C.D.
Cal. Aug. 7, 2014)(dismissing action under Fed. R.
Civ. P. 12(b)(1) because the entire dispute was
subject to arbitration), the Court dismisses the action
because all of Plaintiffs claims are subject to
arbitration.
III. Conclusion
IT IS HEREBY ORDERED that Defendant’s
motion to compel arbitration (ECF No. 6) is granted
in part and denied in part. Pursuant to 9 U.S.C.
section 4, the parties are directed to proceed to
arbitration in accordance with the terms of the
arbitration agreement in the Maritime Contract for
Private Moorage. This action is dismissed.
DATED: August 23, 2016
/s/

WILLIAM Q. HAYES
United States District Judge

